           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Announcements -                      Date:    May 11, 2011
           Reviews of FAA’s Metric To Track Air Traffic
           Losses of Separation and Implementation of Air
           Traffic Safety Action Program
           Federal Aviation Administration
           Project No. 11A3011A000
           Project No. 11A3010A000

  From:    Jeffrey B. Guzzetti                                  Reply to
                                                                Attn. of:   JA-10
            Assistant Inspector General
              for Aviation and Special Program Audits

    To:    Director, Audit and Evaluation

           While the United States has the world’s safest air transportation system, operational
           errors, which occur when a controller fails to ensure the required separation distance
           between aircraft, remain a significant safety concern.             For example, on
           January 20, 2011, an operational error led to a near mid-air collision between an
           American Airlines plane carrying 259 passengers and 2 U.S. Air Force planes near
           New York City. Federal Aviation Administration (FAA) statistics show that the
           number of operational errors increased over the past year, from 1,234 in fiscal year
           2009 to 1,887 in fiscal year 2010. According to FAA, this increase is mostly due to
           the introduction of voluntary, non-punitive safety reporting, such as through the Air
           Traffic Safety Action Program (ATSAP).

           In March 2011, the Chairmen and Ranking Members of the Senate Committee on
           Commerce, Science, and Transportation and its Subcommittee on Aviation
           Operations, Safety, and Security as well as the Ranking Member of the House
           Transportation and Infrastructure Subcommittee on Aviation requested that we review
           FAA’s process for reporting and mitigating the risk of operational errors.
           Specifically, they expressed concerns about the accuracy of the reported number of
           operational errors, the causes for the significant increase in this number, and the
           related safety implications. FAA recently implemented the System Loss of Standard
           Separation (LoSS) Index, a new process designed to capture each incident where
                                                                                                                               2

aircraft fly closer than separation standards permit. 1 However, it is unclear whether
the LoSS Index will help FAA assess operational error risks or impact FAA’s error
statistics.

The Chairmen and Ranking Members also requested that we review FAA’s
implementation of ATSAP, which FAA established to encourage air traffic facility
employees to voluntarily report safety and operational concerns. Specifically, they
questioned whether FAA is using the program, how ATSAP impacts the number of
operational errors reported, and if it is capturing errors that could lead to breakdowns
in safety.

Accordingly, we plan to initiate two audits that will evaluate the following:

    • The effectiveness of FAA’s policies and processes for the new LoSS Index and
      whether FAA is using LoSS to (1) collect, measure, evaluate, and report
      separation losses and (2) mitigate those risks.
    • FAA’s implementation and oversight of ATSAP.

We plan to begin both audits the week of May 9, 2011, and will contact your audit
liaison to schedule an entrance conference for both audits. If you have any questions,
please contact me at (202) 366-0500, Scott Macey, Program Director for the LoSS
audit, at (415) 744-0434, or Bob Romich, Program Director for the ATSAP audit, at
(202) 366-6478.

                                                                #
cc:        FAA Chief of Staff
           Anthony Williams, AAE-001
           Martin Gertel, M-1




1
    The new tool calls for the investigation and analysis of all separation losses, not just operational errors. Pilot deviations
    or miscellaneous losses such as emergency descent for pressurization are also included. Instances of non-compliance
    with separation standards will be called LoSS.
